     V-22 OSPREY JOINT ADVANCED VERTICAL AIRCRAFT

Report No. D-2000-174                     August 15, 2000




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
General, DoD, Home Page at www.dodig.osd.mil.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.
                        Office of the Inspector General, DoD
Report No. D-2000-174                                                  August 15, 2000
 (Project No. D2000AL-0101.000)
 (formerly Project No. 0AL-0123)

                V-22 Osprey Joint Advanced Vertical Aircraft

                                   Executive Summary

Introduction. The V-22 Osprey Joint Advanced Vertical Aircraft (V-22) is a tilt-rotor,
short-take-off-and-landing aircraft, which was developed to fulfill multi-Service
operational requirements. The V-22 operates as a helicopter for takeoffs and landings
and, once airborne, converts to a turboprop aircraft. The V-22 acquisition is in the
engineering, manufacturing, and development phase of the acquisition cycle and is
scheduled for a Milestone III full-rate production decision in December 2000. The
Program Manager, V-22 Osprey Joint Advanced Vertical Aircraft, manages the
V-22 acquisition program under the Program Executive Officer, Air Anti-Submarine
Warfare, Assault, and Special Mission Programs. As of December 31, 1999, the
V-22 Program Management Office estimated that the total program cost for
458 V-22 aircraft (360 aircraft for the Marine Corps, 50 aircraft for the Air Force
Special Operations Command, and 48 aircraft for the Navy) was $38.1 billion
(then-year dollars).

Objective. The overall audit objective was to evaluate the acquisition management of
the V-22. Specifically, the audit determined whether the Marine Corps variant of the
V-22 was ready for the Milestone III full-rate production decision scheduled for
December 2000. We also reviewed the management control program as it applied to
the audit objective.

Results. The V-22 aircraft had 22 deficiencies in operational effectiveness and
suitability requirements that will not be corrected and tested before the Milestone III
full-rate production decision in December 2000. The test team at the Naval Air
Warfare Center described those items as major. In addition, DoD had not provided
adequate funding for V-22 aircraft logistical support to obtain the required fully
mission-capable rate of 75 percent. The V-22 Program Management Office needs to
demonstrate that these issues are being effectively addressed, so that the Milestone
Decision Authority can be reasonably assured that the V-22 will meet all its operational
requirements and be able to perform the full range of missions required by the Joint
Operational Requirements Document. For details of the audit results, see the Finding
section of the report. For a discussion of the management control program, see
Appendix A.
Summary of Recommendations. We recommend that the V-22 Program Management
Office, prior to the Milestone III review, develop a detailed plan that includes the
specific actions to correct the operational requirements deficiencies that were waived
from operational testing, the dates when those deficiencies will be corrected, the dates
when they will be tested, the funding amount needed to correct the deficiencies and to
retrofit existing aircraft, and the actions to provide adequate logistics support.

Management Comments. The Deputy Assistant Secretary of the Navy (Planning,
Programming and Resources) nonconcurred with the finding and stated that the V-22
will complete key operational test and evaluation objectives before Milestone III. The
V-22 Program Management Office predicts that only 1 of the 16 Critical Operational
Issues used to determine the aircraft’s effectiveness and suitability will have a
significant risk and that 5 will have a moderate level of risk at the completion of the
operational test and evaluation. He stated that the deficiencies in operational
effectiveness and suitability requirements were not major deficiencies and that no major
deficiencies were waived. Nevertheless, the Navy concurred that a plan to identify how
and when the waived operational requirements will be funded, corrected, and tested
was needed prior to the Milestone III review. The Navy stated that the V-22 Program
Management Office was in the process of preparing a detailed plan that will address the
status of the waivers and that the recommended actions would be completed by
September 2000. A discussion of management comments is in the Finding section of
this report, and the complete text is in the Management Comments section.

Audit Response. Regardless of whether other Navy officials agree with their test
team’s determination that the waived items were major, the Navy concurred with the
recommendations to address those deficiencies fully in its input to the Milestone
Decision Authority. Therefore, we consider the Navy comments to be responsive and
no further reply is necessary.




                                           ii
Table of Contents

Executive Summary                                        i


Introduction
     Background                                          1
     Objectives                                          2

Finding
     V-22 Milestone III Full-Rate Production Decision   3

Appendixes
     A. Audit Process
          Scope and Methodology                         10
          Management Control Program Review             11
          Prior Coverage                                12
     B. V-22 Critical Operational Issues                13
     C. Waived Operational Requirements for the V-22    14
     D. Report Distribution                             17

Management Comments
     Department of the Navy                             19
Background
    The V-22 Osprey Joint Advanced Vertical Aircraft (V-22) is a tilt-rotor,
    short-take-off-and-landing aircraft, which was developed to fulfill multi-Service
    operational requirements. The V-22 operates as a helicopter for takeoffs and
    landings and, once airborne, converts to a turboprop aircraft. The V-22 carries
    up to 24 combat-equipped soldiers and has a self-deployment capability of
    2,100 nautical miles with a single aerial refueling. The V-22 design
    incorporates advanced technologies in composite materials, survivability,
    fly-by-wire controls, and digital avionics.

    The V-22 has three variants: The Marine Corps Combat Assault and Assault
    Support aircraft, which is designated as the V-22 baseline variant; the Navy
    variant, which is used for Combat Search and Rescue, Special Warfare, and
    Fleet Logistical Support; and the Air Force variant for Special Operations
    missions, which will maintain maximum commonality with the Marine Corps
    variant. Aircraft avionics peculiar to the Air Force mission requirements
    constitute the aircraft’s differences.

    As of December 31, 1999, the V-22 Program Management Office estimated that
    the total program cost for 458 V-22 aircraft (360 aircraft for the Marine Corps,
    50 aircraft for the Air Force Special Operations Command, and 48 aircraft for
    the Navy) was $38.1 billion (then-year dollars).

    The V-22 is in the engineering and manufacturing development phase of the
    acquisition cycle. The V-22 Program Manager manages the V-22 acquisition
    program under the Program Executive Officer, Air Anti-Submarine Warfare,
    Assault, and Special Mission Programs (the Program Executive Officer). Bell
    Helicopters Textron and Boeing Helicopters Division teamed up to develop and
    produce the V-22.

    The V-22 will provide the Services with an improved capability for combat,
    combat support, combat service support, and special operations missions. The
    V-22 will conduct worldwide operations during contingencies; conventional and
    unconventional warfare; and tactical nuclear, biological, or chemical warfare.
    The primary missions of the V-22 will be amphibious assault, long-range
    infiltration, and resupply of Special Operations Forces. Secondary missions will
    include land assault, medical evacuation, fleet logistics support, and special
    warfare.

    The V-22 program started in December 1981 and was originally managed by the
    Army until it was transferred to the Navy in January 1983. The Under
    Secretary of Defense (Acquisition, Technology, and Logistics) approved the
    Marine Corps variant of the V-22 to enter low-rate initial production in an
    April 25, 1997, Acquisition Decision Memorandum. The Acquisition Decision
    Memorandum also delegated future V-22 production decisions to the Navy. The
    Navy Acquisition Executive approved the Acquisition Program Baseline on
    July 16, 1998. The approved program cost for the V-22 aircraft is
    approximately $53 billion (then-year dollars).


                                        1
     In the December 31, 1999, Selected Acquisition Report, the V-22 Program
     Manager reported that no cost or schedule breaches had occurred to the
     Acquisition Program Baseline. The V-22 operational test and evaluation began
     on November 1, 1999, and the V-22 Program Manager was striving toward a
     Milestone III full-rate production decision in October 2000, which was 2 months
     before the December 2000 Milestone III date in the Acquisition Program
     Baseline.

     As of December 31, 1999, the Program Management Office estimated the
     program acquisition unit cost for 458 V-22 aircraft was $55 million each
     (FY 1986 base-year dollars), which was 6.3 percent more than the Acquisition
     Program Baseline estimate of $52 million each for 523 aircraft. However, when
     escalation is considered, the Program Management Office estimate per unit cost
     for 458 V-22 aircraft was $83.2 million (then-year dollars), which was
     17.8 percent less than the Acquisition Program Baseline estimate of
     $101.2 million for 523 aircraft.

Objectives
     The overall audit objective was to evaluate the acquisition management of the
     V-22. Specifically, the audit determined whether the Marine Corps V-22 was
     ready for a Milestone III full-rate production decision. The audit was conducted
     in accordance with the Inspector General, DoD, critical program management
     element approach. See Appendix A for a discussion of the audit scope and
     methodology, the management control program, and prior coverage.




                                        2
            V-22 Milestone III Full-Rate Production
            Decision
            The V-22 program will not successfully complete the key operational test
            and evaluation objectives required to be accomplished before a
            Milestone III full-rate production decision. This condition occurred
            because 22 deficiencies in major operational effectiveness and suitability
            requirements had not been corrected and would not be tested in time for
            the Milestone III review in December 2000. In addition, adequate
            funding was not available to provide logistical support for the existing
            V-22 aircraft. Unless the V-22 Program Management Office can
            demonstrate that these issues are being effectively addressed, the
            Milestone Decision Authority cannot be reasonably assured that the V-22
            will meet its operational requirements and be able to perform the full
            range of missions required by the Joint Operational Requirements
            Document.

Milestone Decision
     The V-22 will not successfully demonstrate test and evaluation of key
     operational requirements before the Milestone III full-rate production decision.
     The V-22 Program Management Office recognized that the V-22 aircraft would
     not meet its operational effectiveness and suitability requirements and all
     operational requirements would not be tested by the scheduled date of the full-
     rate production milestone decision. The Program Executive Officer requested
     waivers of the 22 major operational effectiveness and suitability requirements
     deficiencies from operational evaluation testing. However, the V-22 Program
     Management Office was striving for a Milestone III decision in October 2000,
     which is 2 months ahead of the scheduled Milestone III decision.

Operational Effectiveness and Suitability
     Operational Testing. Successful accomplishment of test and evaluation
     objectives is a key requirement for DoD weapon system acquisition decisions to
     commit significant additional resources to a program and to move from one
     acquisition phase to the next. Change 4 of DoD Regulation 5000.2-R,
     “Mandatory Procedures for Major Defense Acquisition Programs and Major
     Automated Information System Acquisition Programs,” May 11, 1999, provides
     mandatory policies and procedures for the management and progression of
     acquisition programs. DoD Regulation 5000.2-R requires that test and
     evaluation programs be part of a strategy to provide information on risk and risk
     mitigation; to provide an assessment of technical performance specifications and
     system maturity; and to determine whether systems are operationally effective,
     suitable, and survivable for intended use. Test planning, at a minimum, must
     address all system components that are critical to achieving and demonstrating
     the contract technical performance specifications, operational effectiveness, and
     suitability that are required by the Joint Operational Requirements Document.


                                         3
    The desire to meet milestones resulted in demands being made to complete
    operational test and evaluation quickly and to continue production.
    Consequently, program officials accepted a higher level of risk to get the
    program into production, despite uncertainties that the system would work as
    intended, rather than delaying the program and risk losing the funding. After the
    V-22 Program Management Office and the contractor conducted integrated
    operational assessments to determine the readiness of the V-22 for operational
    evaluation testing, the V-22 Program Management Office recognized that all of
    the operational requirements deficiencies would not be corrected in time for
    operational evaluation testing.

    Integrated Operational Assessments. The Government and the contractor
    conducted integrated operational assessment testing of the V-22 to determine the
    potential operational effectiveness, suitability, and readiness of the aircraft for
    operational evaluation testing. The test was designed to assess critical
    operational effectiveness and suitability issues that must be examined during
    operational test and evaluation to determine the V-22 capability to perform its
    intended missions. Appendix B provides a list of the V-22 aircraft critical
    operational issues. The Naval Air Warfare Center released the results of the
    integrated operational assessment on September 20, 1999. The report stated that
    major tests planned for the V-22 were not completed. The report identified
    limitations in major operational effectiveness and stated that additional testing
    would be needed to resolve the critical operational issues; however, fixes would
    not be in place to support operational evaluation testing. The report further
    stated that late equipment delivery and faulty development, redesign, and
    associated testing hampered resolution of these deficiencies. In addition, the
    report recommended various flight envelope and mission limitations, and
    prohibited maneuvers and operations for operational evaluation testing.
    However, despite the limitations, the report recommended that the V-22 proceed
    to operational evaluation testing.

Waiver of Testing Requirements
    Waiver Request. The V-22 Test and Evaluation Master Plan, July 28, 1999,
    contains the measures of operational effectiveness and suitability derived from
    the V-22 Joint Operational Requirements Document. All V-22 critical
    operational issues were to be evaluated as part of operational testing. The V-22
    Program Management Office recognized that all of the operational requirements
    deficiencies would not be corrected in time for operational evaluation testing.
    To not delay operational evaluation testing, the Program Executive Officer
    requested waivers of operational evaluation testing for major operational
    effectiveness and suitability requirements deficiencies that were noted during
    integrated operational assessments. Operational effectiveness is the overall
    degree of a system’s mission accomplishment when it is used by representative
    personnel in the environment planned or expected for operational employment
    of the system. The V-22 was required to meet measures of operational
    effectiveness for payload, cruise speed, self-deployment capability, vertical
    short-take-off and-landing capability, shipboard compatibility, aerial refueling
    capability, and survivability. Operational suitability is the degree to which a

                                         4
system can be satisfactorily fielded, with consideration given to reliability,
availability, compatibility, transportability, interoperability, wartime usage
rates, maintainability, safety, human factors, manpower supportability, and
logistics support. The V-22 was required to meet measures of operational
suitability for reliability, availability, maintainability, and diagnostics.

Reliability, availability, and maintainability are among the most important
criteria for an aircraft. They define the readiness and dependability of the
aircraft performance. The V-22 Program Management Office stated that the
aircraft would not meet the reliability, availability, and maintainability
operational requirements until after operational test and evaluation was
completed and over 1 year after the Milestone III full-rate production decision
scheduled for December 2000. The Program Executive Officer also requested
waivers for other stated operational requirements such as internal cargo
payloads, shipboard short-take-off for mission-specific weights, the ability to
operate in icing conditions, crashworthy auxillary fuel tanks, nuclear biological
and chemical survivability, a ground collision avoidance and warning system,
battle damage repair, exterior lighting for night vision goggle flight, and air
combat maneuvering. The waiver requests stated that all deficiencies would not
be corrected and tested for operational effectiveness and suitability before the
Milestone III full-rate production decision in December 2000. The Program
Executive Officer certified that the V-22 was ready for operational evaluation
testing, even though he had requested waivers because the V-22 could not meet
all operational effectiveness and suitability requirements.

Waiver Approval. The Director, Air Warfare Division, Office of the Chief of
Naval Operations (the Director), concluded that the V-22 was ready to begin
operational evaluation testing. In September 1999, the Director approved
temporary waivers for 22 major operational requirements deficiencies. Waivers
do not dispense with the requirement; instead, they postpone compliance with
the requirement until after operational test and evaluation is completed. The
deficiencies would not be corrected and tested until follow-on operational test
and evaluation (follow-on testing), which will occur well after the Milestone III
full-rate production decision scheduled in December 2000. In granting the
waivers from operational test and evaluation, the Director expressed concern
that the mean time between failure rate would not be met until after completion
of operational evaluation testing. The Director rationalized that the V-22
exceeded all key performance parameters and that, although deficiencies in
temporarily waived requirements would not be tested during operational
evaluation, the V-22 Program did have a clearly established follow-on test and
evaluation date.

The Director also approved waivers for 24 other non-major operational
requirements deficiencies. Although these deficiencies reduced survivability and
increased maintenance, the V-22 Program Management Office did not consider
their impact upon the operation of the V-22 significant enough to delay
operational evaluation testing or to commit scarce resources for their correction.
Correction of the 24 non-major deficiencies depends solely upon additional
funding becoming available.



                                     5
    Follow-on Operational Testing. The V-22 Test and Evaluation Master Plan
    established four periods of follow-on testing for the V-22. Follow-on testing
    was scheduled to begin in October 2000. With the exception of installing a
    defensive weapon system on the aircraft, the V-22 Program Management Office
    planned to correct and test the other major operational requirements deficiencies
    by February 2002. Program management officials stated that they knew how to
    correct the deficiencies, and that the corrections would be made before the
    scheduled follow-on testing. However, the V-22 Program Management Office
    had not developed a detailed plan that included the actions required to correct
    the temporarily waived requirements deficiencies, the funding required to
    correct the deficiencies, and the funding required to retrofit existing aircraft.
    Appendix C lists the major operational requirements waivers that the Program
    Executive Officer requested and the dates by which the requirements
    deficiencies would be corrected and tested during follow-on testing.
    Appendix C also lists the nonmajor requirements deficiencies that were not
    planned to be corrected without additional funding.

Logistics Support Funding
    If the operational test and evaluation did demonstrate that the V-22 was
    technically sound, operationally effective, suitable, and survivable for its
    intended use, the V-22 Program Management Office would still not have the
    funds it needs to support the aircraft at the required level. The V-22 Program
    Management Office identified and effectively planned for each of the logistics
    support elements: Maintenance; Manpower and Personnel; Supply Support;
    Support Equipment; Technical Manuals and Technical Data; Training and
    Training Devices; Computer Resources Support; Facilities, and Packaging,
    Handling, Storage, and Transportation Planning. The Chief of Naval
    Operations requires a 75 percent, fully mission-capable rate for the V-22.
    However, the V-22 Program Management Office estimated that it needs
    additional funding of $18.3 million in FY 2001 and $47.8 million in FY 2002 to
    meet a 75 percent, fully mission-capable rate.

    In formulating its budget request, the V-22 Program Management Office
    requested funding required to ensure that the V-22 aircraft achieved a
    75 percent, fully mission-capable rate. To achieve that rate, the V-22 Program
    Management Office will require $124.3 million in FY 2001 and $256.8 million
    in FY 2002 for spare parts. However, the DoD budget submitted to the
    President requested only $106 million in FY 2001, a reduction of $18.3 million,
    and only $209 million in FY 2002, a reduction of $47.8 million. That level of
    funding would provide the V-22 with a fully mission-capable rate of 70 percent
    in FY 2001 and 64 percent in FY 2002.

    Funding shortfalls in Research, Development, and Test and Evaluation funding
    for FYs 1998 through 2001 prevented completing three repair projects that
    would have developed repair procedures and reduced the quantities of spare
    parts required to support the V-22. Delaying and terminating the repair projects



                                        6
     for extremely expensive composite dynamic components means that repair
     procedures will not be provided, which will result in replacing the components
     instead of repairing them and adding spare parts requirements to an already
     underfunded account.

     Congress increased the number of aircraft to be produced during low-rate initial
     production of the Marine Corps V-22. However, when Congress provided
     additional production funds for additional aircraft, it did not provide funding
     needed for the additional logistics support. By not providing the additional
     logistics support funding for the increased number of aircraft, Congress created
     an even larger logistics support funding shortfall within the V-22 program. If
     the V-22 program is not fully funded to its required logistics support levels, it
     will not be able to:

            •   fully support the initial fielding of the V-22 aircraft,

            •   meet the requirement in the Joint Operational Requirements
                Document for rapid repair of minor battle damage by maintenance
                personnel in the field, and

            •   meet the 75 percent, fully mission-capable rate required by the Chief
                of Naval Operations.

     The Program Executive Office is working with the Naval Air Systems
     Command to identify the requirements and funding needed to resolve the issues.

Effects of a Full-Rate Production Decision
     Successful test and evaluation objectives include testing system performance in a
     realistic environment and rigorously assessing critical performance to reduce
     uncertainty and risk that a system will not fulfill its requirements. The V-22
     Program Management Office recognized that all operational requirements
     deficiencies would not be corrected in time for operational evaluation testing and
     the scheduled Milestone III full-rate production decision date. The V-22 did not
     meet all operational effectiveness and suitability requirements before entering
     operational evaluation testing, and temporary waivers were obtained to test the
     requirements during follow-on testing from October 2000 through July 2004. It
     is important for the V-22 Program Management Office to develop a detailed
     plan that includes the actions to correct the temporarily waived requirements
     deficiencies and the funding amounts to correct the deficiencies and retrofit
     existing aircraft. The V-22 Program Management Office also needs to
     effectively plan and execute all the logistics support elements to ensure that the
     soldier will be able to operate, maintain, and support the system. If the Navy
     Acquisition Executive approves the full-rate production decision in
     December 2000, the V-22 Program Management Office plans to begin full-rate
     production in FY 2001 and to produce about 66 aircraft by the time the
     follow-on testing has concluded in FY 2004.




                                          7
    Beginning full-rate production at the same time that major deficiencies are still
    undergoing operational testing could result in the V-22 Program’s incurring
    additional costs to correct deficiencies in existing aircraft, and also in fielding
    aircraft that will not be able to perform all of the missions required. Failure to
    test and correct the deficiencies could adversely affect the survivability, logistics
    support, and readiness of the aircraft and its ability to fully perform its intended
    mission. Therefore, we believe the V-22 Program Management Office needs to
    take additional steps to demonstrate that the aircraft is ready for a Milestone III
    full-rate production decision. If the full-rate production decision is held as
    planned in December 2000, and if the V-22 Program Management Office has
    not developed a plan to correct deficiencies and fund the logistics support
    requirements, the Milestone Decision Authority cannot be reasonably assured
    that the V-22 will meet all its operational requirements and be able to perform
    the full range of missions required by the Joint Operational Requirements
    Document.

Management Comments on the Finding and Audit Response
    Navy Comments. The Deputy Assistant Secretary of the Navy (Planning,
    Programming and Resources) nonconcurred with the finding and stated that the
    V-22 will complete key operational test and evaluation objectives before
    Milestone III. The V-22 Program Management Office predicts that only 1 of
    the 16 Critical Operational Issues used to determine the aircraft’s effectiveness
    and suitability will have a significant risk and that 5 will have a moderate level
    of risk at the completion of the operational test and evaluation. He stated that
    the deficiencies in operational effectiveness and suitability requirements were
    not major deficiencies and that no major deficiencies were waived. For the full
    text of the Navy comments, see the Management Comments section of this
    report.

    Audit Response. The test team at the Naval Air Warfare Center described the
    deficiencies as major. The 22 deficiencies (revised from 23 deficiencies as
    stated in the draft report) related to features that were not available for testing or
    were classified as Part 1 deficiencies or higher when evaluated. A Part 1
    deficiency requires excessive operator compensation to accomplish the primary
    or alternative mission or represents a severe hazard to the weapon system or
    personnel. The 22 waived deficiencies were in 8 of the 16 Critical Operational
    Issues. In addition, major flight limitations during the operational assessment
    had a significant impact on the test team’s conclusions regarding potential
    operational effectiveness and suitability. As a result, additional testing will be
    necessary to fully resolve all 16 Critical Operational Issues. The test team
    recommended extensive flight-envelope and mission limitations and prohibited
    certain maneuvers and operations during operational test and evaluation.




                                          8
Recommendations and Management Comments
    We recommend that the V-22 Program Manager, prior to the Milestone III
    review, develop a detailed plan that includes the following:

              1. Specific actions required to correct the 22 waived major
    operational requirements.

                 2. Dates by which the operational requirements will be
    corrected.

                 3. Dates by which the operational requirements will be tested.

                 4. Funding amounts that will correct the deficiencies and retrofit
                    existing aircraft.

                 5. Actions to ensure adequate logistics support.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Planning,
    Programming and Resources) concurred that a plan to identify how and when
    the waived operational requirements would be funded, corrected, and tested was
    needed prior to the Milestone III review. He stated that the V-22 Program
    Management Office was in the process of preparing a detailed plan that will
    address the status of the waivers and that the recommended actions would be
    completed by September 2000. For the full text of the Navy comments, see the
    Management Comments section of this report.




                                        9
Appendix A. Audit Process

Scope and Methodology
    We performed this program audit from December 1999 through May 2000, in
    accordance with standards issued by the Comptroller General of the United
    States, as implemented by the Inspector General, DoD, and included such tests
    of management controls as deemed necessary.

    We reviewed documentation dated from April 1995 through April 2000. We
    used criteria in the DoD Regulation 5000.2-R to perform the audit. To
    accomplish the audit objectives, we took the following steps:

           •   determined the users had adequately defined the aircraft
               requirements;

           •   determined the V-22 Program Management Office had developed and
               implemented an acquisition plan, a risk management plan, a logistics
               plan, a test and evaluation plan, and a manufacturing and production
               plan;

           •   determined the V-22 program’s operational test and evaluation
               included all of the system’s operational requirements, as defined in
               the Joint Operational Requirements Document;

           •   determined the V-22 Program Management Office had developed a
               configuration management program or process;

           •   determined the design of the V-22 aircraft was stable;

           •   determined the V-22 Program Management Office had prepared a
               life-cycle cost estimate for the program;

           •   determined the V-22 Program Management Office’s used integrated
               product teams and metrics; and

           •   reviewed management controls related to the audit objective.

    We did not use computer-processed data to perform this audit. We visited or
    contacted individuals and organizations within the Department of the Navy. We
    also visited or contacted individuals and organizations within DoD. Further
    details are available upon request.




                                       10
    DoD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal, subordinate performance goal, and performance measures:

    FY 2000 Corporate Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (00-DoD-2)

    FY 2000 Subordinate Performance Goal 2.4: Meet combat forces’ needs
    smarter and faster, with products and services that work better and cost less, by
    improving the efficiency of DoD acquisition processes. (00-DoD-2.4)

    FY 2000 Performance Measure 2.4.1: Major Defense Acquisition Program
    Cost Growth (In Percents) (00-DoD-2.4.1)

    FY 2000 Performance Measure 2.4.2: Major Defense Acquisition Program
    Cycle Time (00-DoD-2.4.2)

    FY 2000 Performance Measure 2.4.3: Successful Completion of System
    Operational Test and Evaluation (OT&E) Events. (00-DoD-2.4.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons System Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” require DoD managers to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and DoD
    Regulation 5000.2-R, Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPs) and Major Automated Information System Acquisition
    Programs (MAIS),” May 11, 1999, acquisition managers are to use program
    cost, schedule, and performance parameters as control objectives to implement
    the requirements of DoD Directive 5010.38. Accordingly, we limited our
    review to management controls directly related to the acquisition management of
    the V-22.

    In evaluating the management control process, we reviewed the risk-
    management program to determine the level of risk that the officials assigned to

                                        11
    aspects of the aircraft. We also reviewed the FYs 1998 and 1999 Annual
    Statements of Assurance for the Navy to determine whether any weaknesses had
    been reported relating to the V-22 program. The Navy did not identify the V-22
    program as an assessable unit.

    Adequacy of Management Controls. Management controls were adequate in
    relation to the overall acquisition management of the V-22, with the exception of
    the lack of an adequate test plan to correct and test the 22 deficiencies in major
    operational effectiveness and suitability requirements of the V-22.

Prior Coverage
    During the last 5 years, the General Accounting Office issued one audit report
    that discussed the requirements of the V-22.

    General Accounting Office Report No. NSIAD-98-13 (OSD Case No. 1953),
    "Navy Aviation: V-22 Cost and Capability to Meet Requirements are yet to be
    Determined," October 22, 1997.




                                        12
Appendix B. V-22 Critical Operational Issues
   The Test and Evaluation Master Plan addresses certain critical operational issues
   for examination during operational test and evaluation. A critical operational
   issue is defined as a key operational effectiveness or operational suitability issue
   that must be examined to determine the system’s capability to perform its
   mission.

                                  Effectiveness Issues

   Assault Support – Will the V-22 demonstrate the operational performance
   necessary to effectively execute assault support operations in its intended
   operating environment?
   Self-Deployment – Will the V-22 demonstrate the operational performance
   necessary to effectively self-deploy in its intended operating environment?
   Survivability – Will the susceptibility and vulnerability characteristics of the
   V-22 allow the successful completion of its mission in its intended operating
   environment?
   Tactics – Will the tactics developed for the V-22 support effective employment
   in its intended operating environment?

                                   Suitability Issues

   Reliability – Will the V-22 be reliable in its intended operating environment?
   Availability – Will the availability of the V-22 support its mission?
   Maintainability – Will the V-22 be maintainable in its intended operating
   environment?
   Logistic Supportability – Will the V-22 be logistically supportable?
   Compatibility – Will the V-22 be compatible with its operating environment?
   Interoperability – Will the V-22 effectively interface with corresponding
   systems or units of other U.S. and Allied forces in the execution of its intended
   operational mission?
   Training – Will the V-22 be suitable for operator and maintenance personnel?
   Human Factors – Will the operator-machine interface of the V-22 be suitable?
   Safety – Will the V-22 be safe to operate and maintain?
   Documentation – Will the V-22 technical documentation support operation and
   maintenance of the V-22?
   Diagnostics – Will the V-22 diagnostic capabilities be adequate, reliable, and
   accurate?
   Software – Will the V-22 software be reliable, logistically supportable, mature,
   and year 2000 compliant?


                                        13
Appendix C. Waived Operational Requirements
            for the V-22

Major Deficiencies Waived from Operational Evaluation
 Testing
    According to the V-22 Program Management Office, waivers are temporary and
    include identified corrective actions, but they are not available in the low-rate
    initial production aircraft configurations. The follow-on testing would test the
    items that were waived from operational testing.

    Planned Correction in Follow-on Operational Test and Evaluation – III-A
    (October 2000 through January 2001)

           • Inadequate cargo handling system
           • Inadequate cockpit/cabin nuclear, biological, and chemical
             overpressure protection
          • Excessive force required to disconnect the intercommunication
             system
          • Radar altimeter ineffective during forward-hook and dual-point
             external loads
          • Unable to align Light Weight Inertial Navigation System without
             Global Positioning System signal
          • Aircraft not cleared to operate in icing conditions
          • Maximum short take off (shipboard) 48,500 pounds rather than
             mission profile specific weight
          • Aircraft not cleared to refuel from a KC-135 tanker
          • Unable to embark and operate 24 aircraft from a general-purpose
             amphibious assault ship or multi-purpose amphibious assault ship
          • Aircraft not cleared for air combat maneuvering.
    Planned Correction in Follow-on Operational Test and Evaluation – III-B
    (December 2001 through-February 2002)

           •   False alarm rate not met
           •   Mean time between failure rate not met
           •   Pilot isolation from intercommunication system while transmitting in
               unsecured mode
           •   Low reliability of multifunction display
           •   Low reliability of the V-22B weapon system

                                       14
           •   Avionics Navigation System does not provide data other than World
               Geodetic System
           •   Deterioration and cracking of the nitrile rubber clamps
           •   Pilot and copilot seats incorporate nonqualified part list inertial reels
               in the shoulder harness restraint system
           •   AN/APR-39A(V)2 degraded Band 2 analysis of alternatives
           •   Crashworthy auxiliary fuel tanks not available
           •   Ground collision avoidance and warning system not available.

    Planned Correction in Follow-on Operational Test and Evaluation – III-C
    (April through July 2003)
           No temporary waived operational requirements were scheduled for
           testing and evaluation during this period.

    Planned Correction in Follow-on Operational Test and Evaluation – III-D
    (May through July 2004)

           Defensive weapon system not available.

Nonmajor Operational Requirements Deficiencies
    Nonmajor operational requirements deficiencies or threshold requirements are
    considered valid, but they do not restrict the V-22 from meeting its mission.
    The V-22 Program Management Office believed that it did not need to delay
    operational test and evaluation or to commit scarce program resources to correct
    the following deficiencies before operational test and evaluation.

           •   Poor wheel braking system integration and pilot interference
           •   Adverse longitudinal stick requirements during conversion or
               reconversion from airplane mode
           •   Unacceptable drop out of mission computers
           •   Excessive lateral directional trim requirements during simulated
               in-flight refueling at 60 degree nacelle
           •   No indications of longitudinal maneuvering capability to the pilot
           •   Potential single pilot failure and multiple electrical power source
               grounds
           •   Improper direct current ground wire (PA75A1N and P75A0N)
               connections
           •   Feed tank vent location promotes impingement on the aircraft
           •   Excessive failure of mini-mark IV fasteners
           •   Aircraft settling due to loss of interim power

                                         15
•   Inadequate installed performance of AN/AVR-2A system
•   AN/AVR-2A false alarms
•   Aircraft tie-down chains contact airframe
•   Identification friend or foe Mode 4 fault indications
•   Cabin door open/close
•   Hydraulic line failures due to engine air particle separator motor
    failure
•   Movement of aircraft to hangar aboard ship requires removal of
    refueling probe extension
•   Position lights cannot be used with night vision goggles
•   Infra-red searchlight is not dimmable
•   Aircraft is limited to +/- 5 degree deck roll (+/- 8 degree is
    requirement)
•   Do not have battle damage assessment and repair procedures
•   Do not have chaff and flare expendable switches located in the
    scanner and observer stations
•   Aircraft external and internal surfaces are not resistant to the
    adherence or effects of contaminant agents
•   Hoist cable length is 205 feet instead of 235 feet.




                             16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Chief of Naval Operations
Naval Inspector General
Auditor General, Department of the Navy
Program Executive Officer, Air Anti-Submarine Warfare, Assault, and Special Mission
   Programs
   Program Manager, V-22 Osprey Joint Advanced Vertical Aircraft

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Marine Corps
Commandant of the Marine Corps
Commanding General, Marine Corps Systems Command
Commanding General, Marine Corps Combat Development Command
Inspector General of the Marine Corps




                                          17
Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          18
Department of the Navy Comments




                     19
Navy comments
accurately
reflected the
information in
attachments A
and B. We did
not include the
attachments.




                  20
     Page 5




21
22
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Mary L. Ugone
     Charles M. Santoni
     Robert L. Shaffer
     James A. Hoyt
     Rhonda L. Ragsdale
     Nina Athy
     Yolanda D. Bailey
     Rebecca L. Deats
     Chelsea D. Pickens
     Bernice M. Lewis
